<html>
<title> - VARIOUS MEASURES</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




 
                            VARIOUS MEASURES

=======================================================================

                                 MARKUP

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                                   ON

           H. Res. 54, H. Res. 92, H. Res. 137, H. Res. 145,

          H. Res. 187, H.R. 390, H.R. 479, H.R. 672, H.R. 1644

                               __________

                             MARCH 29, 2017

                               __________

                            Serial No. 115-8

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
     
        
        
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       



        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                       
                       
                       
                       
                       
                              ________

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 24-833 PDF                 WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001   
                      
                       
                       
                       
                       

                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          AMI BERA, California
MO BROOKS, Alabama                   LOIS FRANKEL, Florida
PAUL COOK, California                TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
RON DeSANTIS, Florida                ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP OF

H. Res. 54, Reaffirming the United States-Argentina partnership 
  and recognizing Argentina's economic reforms...................     2
  Amendment in the nature of a substitute to H. Res. 54 offered 
    by the Honorable Albio Sires, a Representative in Congress 
    from the State of New Jersey.................................     6
H. Res. 92, Condemning North Korea's development of multiple 
  intercontinental ballistic missiles, and for other purposes....    10
  Amendment in the nature of a substitute to H. Res. 92 offered 
    by the Honorable Joe Wilson, a Representative in Congress 
    from the State of South Carolina.............................    15
H. Res. 137, Honoring the life of Shimon Peres...................    21
H. Res. 145, Expressing the sense of the House of Representatives 
  regarding the fight against corruption in Central America......    24
  Amendment in the nature of a substitute to H. Res. 145 offered 
    by the Honorable Norma J. Torres, a Representative in 
    Congress from the State of California........................    28
H. Res. 187, Relating to efforts to respond to the famine in 
  South Sudan....................................................    31
  Amendment in the nature of a substitute to H. Res. 187 offered 
    by the Honorable Karen Bass, a Representative in Congress 
    from the State of California.................................    35
H.R. 390, To provide for emergency relief to victims of genocide, 
  crimes against humanity, and war crimes in Iraq and Syria, to 
  provide accountability for perpetrators of these crimes, and 
  for other purposes.............................................    39
  Amendment in the nature of a substitute to H.R. 390 offered by 
    the Honorable Christopher H. Smith, a Representative in 
    Congress from the State of New Jersey........................    59
      Amendment to the amendment in the nature of a substitute to 
        H.R. 390 offered by the Honorable Christopher H. Smith...    70
H.R. 479, To require a report on the designation of the 
  Democratic People's Republic of Korea as a state sponsor of 
  terrorism, and for other purposes..............................    71
  Amendment in the nature of a substitute to H.R. 479 offered by 
    the Honorable Ted Poe, a Representative in Congress from the 
    State of Texas...............................................    83
H.R. 672, To require continued and enhanced annual reporting to 
  Congress in the Annual Report on International Religious 
  Freedom on anti-Semitic incidents in Europe, the safety and 
  security of European Jewish communities, and the efforts of the 
  United States to partner with European governments, the 
  European Union, and civil society groups, to combat anti-
  Semitism, and for other purposes...............................    89
  Amendment to H.R. 672 offered by the Honorable Ileana Ros-
    Lehtinen, a Representative in Congress from the State of 
    Florida......................................................    97
H.R. 1644, To enhance sanctions with respect to transactions 
  relating to North Korea, and for other purposes................    98
  Amendment in the nature of a substitute to H.R. 1644 offered by 
    the Honorable Edward R. Royce, a Representative in Congress 
    from the State of California, and chairman, Committee on 
    Foreign Affairs..............................................   138
      Amendment to the amendment in the nature of a substitute to 
        H.R. 1644 offered by the Honorable Ted S. Yoho, a 
        Representative in Congress from the State of Florida.....   178
      Amendment to the amendment in the nature of a substitute to 
        H.R. 1644 offered by the Honorable Gerald E. Connolly, a 
        Representative in Congress from the Commonwealth of 
        Virginia.................................................   179

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE RECORD
                                APPENDIX

Markup notice....................................................   198
Markup minutes...................................................   199
Markup summary...................................................   201
The Honorable David Cicilline, a Representative in Congress from 
  the State of Rhode Island: Material submitted for the record...   202
The Honorable Ileana Ros-Lehtinen: Prepared statement............   203
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........   205


                            VARIOUS MEASURES

                              ----------                              


                       WEDNESDAY, MARCH 29, 2017

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:45 a.m., in 
room 2172 Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. This committee will come to order. We will 
ask everyone to take their seats at this time.
    Pursuant to notice, we meet today to mark up nine 
bipartisan measures and, without objection, all members will 
have 5 days to submit statements or extraneous materials on 
today's business.
    As members were notified yesterday, we intend to consider 
today's measures en bloc. And so, without objection, the 
following items previously provided to members and in your 
packets will be considered en bloc and are considered as read: 
House Resolution 54, reaffirming the United States-Argentina 
partnership and the Sires amendment 10 in the nature of a 
substitute; House Resolution 92, condemning North Korea's 
missile development with the Wilson amendment in the nature of 
a substitute to House Resolution 92; House Resolution 137, 
honoring the life of Shimon Peres; House Resolution 145, 
regarding the fight against corruption in Central America and 
the Torres amendment in the nature of a substitute to House 
Resolution 145; House Resolution 187, relating to the famine in 
South Sudan and the Bass amendment 27 in the nature of a 
substitute to House Resolution 187; H.R. 390, the Iraq and 
Syria Genocide Emergency Relief and Accountability Act and 
Smith amendment 23 in the nature of a substitute and Smith 
amendment 29 to that substitute; then we have H.R. 479, the 
North Korea State Sponsor of Terrorism Designation Act and Poe 
amendment 25 in the nature of a substitute; H.R. 672, the 
Combating European Anti-Semitism Act and Ros-Lehtinen amendment 
to H.R. 672; and we have H.R. 1644, lastly, the Korean 
Interdiction and Modernization of Sanctions Act with Royce 
amendment 2 in the nature of a substitute, Yoho amendment 8 to 
that substitute and Connolly amendment 9 to that substitute.
    [The information referred to follows:]<greek-l>H. Res. 
54 deg.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


ANS to H. Res. 54 deg

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



H. Res. 92 deg.[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



H. Res. 92 deg.[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



H. Res. 137 deg.[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



H. Res. 145 deg.[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



 H. Res. 145 deg.[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



H. Res. 187 deg.<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



 H. Res. 187 deg.<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



H.R. 390 deg.<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



 H.R. 390 deg.<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Amendment to ANS deg.<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

H.R. 479 deg.<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



 H.R. 479 deg.<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


H.R. 672 deg.<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Amendment to H.R. 672 deg.<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<greek-l>H.R. 1644 deg.<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



 H.R. 1644 deg.<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



 amendment deg.<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Connolly amendment deg.<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Royce. I now recognize myself to speak on today's 
business.
    I want to begin by thanking Representative Wilson for his 
leadership on House Resolution 92, which describes the growing 
sophistication of North Korea's nuclear and missile program, 
and it reaffirms U.S. security commitments to our allies in 
Northeast Asia. I was pleased to see Secretary of State 
Tillerson say that the U.S. is rethinking our response to Kim 
Jong Un's dangerous provocations.
    A good place to start would be through aggressive 
enforcement of existing sanctions, as Mr. Wilson's resolution 
recognizes, including the North Korea Sanctions and Policy 
Enhancement Act that we on this committee passed out last year.
    A report last month made clear that Pyongyang is using 
increasingly sophisticated techniques to evade existing 
sanctions, including through dealings with middlemen and other 
countries that are willing to trade in money, in arms, and in 
slave labor and that, in turn, funds the North Korean regime.
    That is why Ranking Member Engel and I introduced H.R. 
1644, the Korean Interdiction and Modernization of Sanctions 
Act. This legislation, of course, will expand U.S. sanctions to 
target these front companies that fund the regime's nuclear and 
missile programs.
    The bill includes a provision that has been championed by 
Judge Poe, and that is the focus on his H.R. 479, the North 
Korea State Sponsor of Terrorism Act, which passed the House 
last Congress and which we consider again today. This 
legislation takes on new urgency as the regime has reportedly 
carried out targeted assassinations of North Korean defectors, 
including the recently widely-reported assassination of Kim 
Jong Un's half-brother.
    This legislation requires the State Department to determine 
whether North Korea should be relisted as a State Sponsor of 
Terrorism. And I want to thank the judge, along with Chairman 
Emeritus Ros-Lehtinen for pressing this issue, as well as 
Ranking Member Engel for working on the refined text the 
committee is taking up today.
    Moving on, I want to also thank Representative Smith for 
H.R. 390, the Iraq and Syria Genocide Emergency Relief and 
Accountability Act. More than a year after the Obama 
administration--under pressure from this committee--declared 
that ISIS' actions against religious minorities in Iraq and 
Syria constituted ``genocide,'' a year after that, these 
communities--which include Christians, Yazidis, Syrians and 
many others--are still in urgent need of assistance. This 
legislation here recognizes that these minority groups in Iraq 
and Syria are key to the social fabrics of the region and 
authorizes the State Department to support efforts to collect 
and preserve evidence of genocide and crimes against humanity 
carried out by ISIS so that, someday, justice may be served on 
the perpetrators.
    Next, we consider H.R. 672, which reaffirms the U.S. 
commitment to combatting anti-Semitism, including collaboration 
between U.S. and European law enforcement on efforts to improve 
security for Jewish communities. It also urges European allies 
to adopt a working definition of anti-Semitism, which is key to 
ensuring that this evil is effectively and uniformly 
confronted.
    And I also thank Representative Sires for his leadership in 
bringing forward House Resolution 54. This reaffirms the 
partnership between the United States and Argentina. After over 
a decade of economic mismanagement and corruption and alliances 
with the likes of Iran and Venezuela, Argentina took an 
important turn in electing a new President in 2015. Since then, 
Argentina has undertaken difficult economic reforms to undo the 
damage and return to global markets--and has committed to 
investigating the 1994 bombing of the AMIA Jewish cultural 
center.
    I also want to recognize Representative Torres for her work 
to advance House Resolution 145. Corruption and impunity in 
Central America have fueled many problems across Central 
America and beyond. As this resolution highlights, the U.S. has 
an important interest in seeing Central American countries 
strengthen weak institutions to tackle corruption.
    I next want to thank Representative Cicilline for 
introducing House Resolution 137. This honors the life of 
Shimon Peres. This resolution appropriately recognizes the many 
achievements of this great Israeli politician and peacemaker, 
and expresses this body's condolences to the people of Israel 
and the family of Shimon Peres in their bereavement.
    And lastly, I want to thank Representative Bass for House 
Resolution 187, highlighting the deadly famine underway in 
South Sudan and urging the U.S. Agency for International 
Development to continue providing emergency food assistance. 
The resolution emphasizes the need to respond with locally-
sourced food, and I thank her for that, as appropriate, to 
ensure our efforts save as many lives as possible as quickly as 
possible.
    And I now recognize the ranking member for his remarks.
    Mr. Engel. Mr. Chairman, thank you for calling this markup. 
This markup today is indicative of what you and I have both 
tried to do, along with members of this committee on both sides 
of the aisle, and that is working in a nonpartisan way to pass 
legislation that is important to the American people. So I 
thank you again for being a good partner in that effort.
    The chairman sets the tone and you have certainly set the 
right one.
    We have nine good measures before us today and I want to 
thank our members for all their hard work. I will start by 
voicing my support for three different measures addressing the 
ongoing challenge of North Korea. They send a clear message 
that we need a careful and comprehensive strategy aimed at 
building peace and stability on the Korean Peninsula.
    I am glad to be an original cosponsor of the chairman's 
measure, the Korean Interdiction and Modernization of Sanctions 
Act. This bill updates the North Korea Sanctions and Policy 
Enhancement Act. It seeks to build on the U.N. Security 
Council's efforts to cut off sources of hard currency to the 
Kim regime and the North Korean nuclear program.
    I have had occasion to travel to North Korea twice, 
including once with our colleague and friend, Joe Wilson, and 
if or when you go there, it is like stepping backwards into a 
time warp. It is just absolutely amazing and interesting.
    I also welcome the bill offered by Chairman Poe and Ranking 
Member Sherman to ask the State Department to take another look 
at North Korea to determine whether or not they should be 
designated as a State Sponsor of Terrorism. And Mr. Wilson's 
resolution condemns North Korea's development of 
intercontinental ballistic missiles, reaffirms America's 
commitment to our allies, the Republic of Korea and Japan, 
calls upon China to use its influence to bring the North Korea 
regime back to credible negotiations, and encourages a 
comprehensive diplomatic effort to see that existing sanctions 
against North Korea are fully enforced.
    Democratic and Republican administrations alike have 
struggled with this challenge but we cannot give up. In my 
view, we need sustained high-level attention and relentless 
diplomatic engagement, and these three measures support that 
approach.
    I will turn now to the resolution reaffirming the 
partnership between the United States and Argentina offered by 
Mr. Sires and Mr. Duncan. I have long advocated exploring the 
untapped potential of the U.S.-Argentina relationship and, 
since the election of Mauricio Macri in late 2015, we have made 
good progress.
    At the chairman's and my urging, President Obama quickly 
ramped up engagement with the Macri administration, including a 
visit to Buenos Aires last year.
    President Macri will visit Washington next month. I look 
forward to welcoming him, and I am glad to support this 
measure, which signals our commitment to this relationship.
    Next, I am glad to support Mr. Cicilline's resolution 
honoring the life of Shimon Peres. In a lifetime, you just 
don't meet that many people about whom you can say this person 
helped shape a country, helped build a new democracy from the 
ground up. That was true of Shimon Peres. He was a giant of 
Jewish history. He is a giant of history. He was a champion of 
Israel and the people of Israel and he was a visionary for 
peace in progress. I attended his funeral in Israel several 
months ago. It is a vision we need to keep alive, and this 
measure will help to do so.
    Moving on, I want to thank Congresswoman Torres for her 
work on Central America and for offering her resolution 
supporting the fight against corruption there. A big part of 
our work in recent years to get to the root cause of child 
migration from Central America has been supporting key figures 
across the region, particularly the Attorneys General in 
Guatemala, El Salvador, and Honduras and the heads of the 
International Commission Against Impunity in Guatemala and the 
mission to support the fight against corruption and impunity in 
Honduras. This resolution underscores how important it is to 
maintain that support and signals that the United States stands 
with those who are committing to ending corrupting in those 
countries.
    I am also glad to support Ranking Member Bass' resolution 
emphasizing the need for continued action to deal with the 
famine in South Sudan. For more than 3 years of conflict, the 
Government of South Sudan and the armed opposition have stood 
in the way of humanitarian assistance, leading to the man-made 
famine we see today.
    Without the United States and our partners, this situation 
would, frankly, be a lot worse. Another reminder of what good a 
strong foreign affairs budget can do. Still, nearly 5 million 
people are in desperate need of food assistance and, without 
intervention, that number will rise by another \1/2\ million.
    This measure calls for continued strong support to help 
alleviate this crisis and I thank Representative Bass for her 
leadership.
    Next, let me thank Chairman Smith for his bill aimed at 
providing support for minority groups victimized by ISIS. The 
United States cannot stand by while genocide is perpetrated 
against Christians, Yazidis, or any other minority group. 
Congress said as much last year, as did the Obama State 
Department and this bill follows up on those efforts.
    And I was glad to join Chairman Royce to reintroduce the 
Caesar Syria Civilian Protection Act last week to press for an 
end to that conflict.
    Lastly, I am proud to cosponsor a bill introduced by my 
friend from New York, Nita Lowey, the Combating European Anti-
Semitism Act. We have seen an alarming resurgence of this 
ancient hatred, both overseas and here at home, and we need to 
respond forcefully. This measure calls for continued and 
enhanced reporting on anti-Semitic incidents in Europe. It also 
makes clear why it is so important for the United States, other 
countries, and multilateral bodies to confront this problem, 
including ensuring the safety of European Jewish communities.
    Before I conclude, Mr. Chairman, I would like to reiterate 
my hope that this committee will soon take up two additional 
pieces of legislation dealing with Russia's criminal 
interference in last year's election. The Protecting Our 
Democracy Act would establish an independent commission to 
investigate this issue. Our country was attacked. Our democracy 
is under threat, and too many questions remain unanswered about 
contacts between the President's campaign and Russian 
officials. I believe the issue is too important to let it get 
swallowed up by partisan politics. So, let's get it out of 
Congress completely and turn this issue over to a nonpartisan 
body just like we did after the 9/11 attacks. The bill to do 
that is in our committee's jurisdiction and I hope we can act 
on it in the not too distant future.
    I would also encourage the committee in the future to mark 
up the SECURE Our Democracy Act, which I introduced with Mr. 
Connolly. This bill, nonpartisan on its face, would punish 
those responsible for interfering in our elections from 
overseas and send a strong warning to anyone thinking of doing 
so in the future.
    With that, Mr. Chairman, I yield back and I think we have 
good measures on this markup today.
    Chairman Royce. Thank you, Mr. Engel.
    We go now to Ileana Ms. Ros-Lehtinen of Florida.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman and the 
ranking member.
    Last September, I had the privilege and honor to be part of 
the delegation representing our great country at the funeral of 
Shimon Peres. Several of our colleagues, as you have heard, on 
our committee were also part of the delegation--Ranking Member 
Engel, Ted Deutch, Lee Zeldin, Alan Lowenthal, and, of course, 
David Cicilline, who is the author of one of the important 
resolutions that we have before us today honoring the life of 
this icon, Shimon Peres. Thank you, Mr. Cicilline, for your 
bill.
    I also fully support H.R. 672, the Combating European Anti-
Semitism Act. I am an original cosponsor of that bill authored 
by my good friend, Nita Lowey. Nita and I, along with Ranking 
Member Engel, Ted Deutch, and Chris Smith, are all founding 
members and co-chairs of the Bipartisan Task Force for 
Combating Anti-Semitism. We have seen a steady rise in anti-
Semitic incidents across Europe, with the Jewish community 
increasingly targeted for physical and verbal abuse and, 
alarmingly, targeted in terrorist attacks as well. This bill 
will send a strong message that we and our European allies 
stand together in promoting the shared values that bind us 
together and that this form of hatred and intolerance has no 
place in today's world.
    I also want to speak in support of my good friend, Albio 
Sires', resolution on reaffirming the U.S.-Argentina 
partnership and I am a cosponsor of his bill. President Macri 
has shown great leadership and a commitment to truth and 
justice by announcing his intention to continue to investigate 
and prosecute those responsible for the 1994 bombing of the 
Argentina-Israeli Mutual Association, AMIA, in Buenos Aires, 
Argentina. Earlier this month, we sadly marked the 25th 
anniversary of the terrorist attack on the Israeli Embassy in 
Buenos Aires, which was followed by the 1994 AMIA attack. It is 
no secret that the Iranian-backed terrorist group Hezbollah was 
responsible for these attacks, yet to this day, Iran and 
Hezbollah have evaded justice. It is also commendable that 
President Macri vowed to investigate the suspicious 
circumstances involving the death of Special Prosecutor Alberto 
Nisman. We have to help President Macri and the Argentinian 
Government continue his work and legacy by bringing those 
responsible for his death and the terrorist attacks to justice.
    I will submit the rest of my statement for the record, 
supporting the three North Korea measures before us today.
    Thank you very much, Mr. Chairman and ranking member for 
the time.
    Chairman Royce. Thank you Ms. Ros-Lehtinen.
    I think Albio Sires was seeking time from New Jersey.
    Mr. Sires. I would like to start by thanking Chairman 
Royce, Ranking Member Engel, and their staffs for working with 
me to bring House Resolution 54 to our committee's first markup 
for the new Congress.
    I would like to thank Chairman Duncan, who is in charge of 
the Western Hemisphere Subcommittee and led a delegation to 
Argentina last March to help restart relations with the Macri 
administration.
    House Resolution 54 reaffirms the strong U.S. partnership 
with Argentina. It acknowledges their President, Mauricio 
Macri, for his efforts to make the necessary changes and bring 
Argentina back into the international economy.
    President Macri has worked hard to stimulate growth and 
bring Argentina back as a powerful player in the region after 
years of isolationist views from the Kirchners.
    I was pleased to visit Argentina last year and see 
firsthand the changes the new government was making and it was 
refreshing to see the progress already being made. Most 
importantly, we received assurances from the Macri 
administration that they will restart investigations into the 
horrific 1994 bombing of the AMIA Jewish Center in Buenos 
Aires, which left 85 dead and hundreds more injured, and the 
untimely and suspicious death of prosecutor Alberto Nisman, who 
was found dead under suspicious circumstances on the eve of 
delivering his explosive report which outlined the connections 
between the bombing, Iran, and former Argentina President 
Cristina Kirchner's effort to cover up these links.
    Unfortunately, the victims of these attacks and their 
families don't have the answers to what really occurred and 
troubling reports of Iran's role in the bombing deserve a 
thorough investigation that finally brings the perpetrators to 
justice.
    Argentina is a great partner and friend and I believe we 
must continue to support our friends and continue to grow this 
critical relationship.
    I would like to speak in support of Resolution 145 which 
expresses support for Central America's fight against 
corruption. The only way to make sure the money invested in 
Central America leads to long-lasting change is to root out 
corruption and improve the rule of law. The brave Attorney 
General and the leaders of the CICIG and MACCHIH Commissions in 
Guatemala and Honduras are leading the change.
    Thelma Aldana, Oscar Chinchilla, Douglas Melendez, Ivan 
Velasquez, and Juan Jimenez are just a few of the brave leaders 
that, even after threats to their own lives, continue to fight 
to hold corrupt officials accountable and reduce the level of 
impunity. I have had the honor of meeting these individuals and 
have seen the great work that they are doing, the challenges 
they are up against, and their commitments to helping Central 
America.
    I commend Congresswoman Torres, who introduced this timely 
and bipartisan piece of legislation. And I urge all my 
colleagues to join in supporting our efforts to fight 
corruption in Central America.
    Once again, I thank my colleagues for their support and I 
urge your support for H.R. 54 and H.R. 145.
    Thank you.
    Mr. Connolly. Thank you.
    Mr. Sires. I would like to----
    Mr. Connolly. Yes, yield to me.
    Mr. Sires [continuing]. Yield.
    Mr. Connolly. I thank my friend, Mr. Sires and thank him 
for his passionate H. Res. 145.
    I want to thank the chairman and the ranking member for 
this thoughtful markup. I am pleased to support all of the 
bills. As co-chairman of the Korea Caucus, I am particularly 
supportive of the three bills dealing with the growing threat 
from North Korea. I think it is vital that this committee speak 
out and that the Congress be heard and that a clear message 
that is unified and bipartisan be sent to the Korean Peninsula, 
particularly to those in Pyongyang.
    I also thank the chair and ranking member for accepting my 
amendment for a bit of a clarification on humanitarian aspects 
of the sanctions.
    I also want to join in commending the resolution on Shimon 
Peres. I had the privilege of meeting with him for several 
hours on my last trip to Israel and he was a statesman of 
incomparable ability and, by the way, a stalwart supporter of a 
two-state solution. And I was pleased, recently, to be the 
coauthor of the letter reaffirming that as the basis for U.S.-
Middle East negotiations with Mr. David Price of North 
Carolina, signed by 191 of our colleagues.
    Finally, I want to reiterate what Mr. Engel indicated. It 
is great to start this fresh markup on a bipartisan basis and I 
hope we can continue that tradition but I also believe that 
Russia represents an insidious threat to the electoral process 
here in the United States. The sanctions legislation Mr. 
Elliott and I have coauthored I think is a bill that is 
properly to be scheduled for markup. I would urge the chairman 
of the majority to do that. I think that this committee needs 
to be heard from on this subject. We shouldn't just cede it to 
the Intelligence Committees and I hope to have a dialogue with 
the majority on that subject as we move forward.
    And with that, I yield back to my friend, Mr. Sires.
    Chairman Royce. Thank you, Mr. Sires. Thank you, Mr. 
Connolly.
    We now go to Mr. Joe Wilson--oh, Mr. Chris Smith was 
seeking time.
    Mr. Smith. Thank you. Thank you very much, Mr. Chairman.
    First of all, I want to say I support all the bills and I 
thank you and Eliot Engel for again bringing all of us together 
in a very bipartisan way for a markup for a number of important 
bills and resolutions.
    H.R. 390, legislation that I have introduced, the Iraq and 
Syria Genocide Emergency Relief and Accountability Act, is long 
overdue. I have chaired nine hearings over the last 3 years on 
the fact that Christians and the Yazidis have been subjected to 
genocide and last December, right before Christmas, traveled to 
Erbil, visited many of those who have or are now IDPs in Erbil, 
and frankly, they are not getting aid. They were not getting 
aid for the last several years. It was bewildering, 
aggravating, and angering that so many people would be 
bypassed.
    This legislation directs the administration to really 
provide assistance to these suffering individuals. They are 
Christians; they are Yazidis. Seventy thousand Christians in 
Erbil, IDPs. I went to one of the refugee camps, 6,000 people, 
not a dime from the U.S. Government and that is a gross 
oversight, indifference, or worse. This legislation seeks to 
correct that.
    Anna Eshoo is the prime cosponsor on the Democratic side 
and I am very, very grateful for her leadership. We have 35 
cosponsors, including 12 members of this committee.
    The legislation also focuses on accountability. I have had 
a series of hearings on the whole issue of hybrid courts, as 
opposed to the ICC, although if that works, do it, but I don't 
think it will. But the importance of collecting evidence that 
is actionable so that people who commit these atrocities can be 
held to account, this legislation does that as well and, 
hopefully, will make a difference in holding perpetrators of 
these crimes against humanity and these war crimes to account.
    It is backed by 25 plus organizations. All of the U.S. 
Ambassadors-at-Large for War Crimes have endorsed it. The 
former prosecutor for Sierra Leone, who did an outstanding job 
and prosecuted a number of people, including the former 
President of Liberia. David Crane, the chief prosecutor, has 
testified twice at hearings that I have held, he is onboard and 
thinks this is a very important bill on accountability, so we 
do have a good cross-section of support for this legislation.
    Let me also say I am a strong supporter of the Bass 
resolution. We had a hearing yesterday in my subcommittee on 
the famine in eastern Africa in South Sudan, where almost 5 
million people are at risk and the number is growing, 
exacerbated by the conflict. I was there in Juba last August. 
It is a fight primarily between the Nuer and the Dinka tribes. 
It is outrageous that the ethnic conflict has resulted in 
thousands, tens of thousands, of lives being lost through 
gunfire and killings of various kinds, but it is made worse, a 
famine because of the conflicts. The same can be said for 
Somalia and other parts of east Africa, where this emerging 
famine, and that was the gist of our hearing yesterday, puts at 
least 24 million people at risk in eastern Africa. The response 
must be robust.
    We emphasized yesterday the importance of protecting 
humanitarian aid workers. I pointed that out when I went to 
Juba. One of those workers was from my district who almost got 
raped in the Terrain complex in July of last year. Others were 
raped. Others were beaten and one journalist was killed at that 
compound. So we stressed with Salva Kiir, and I did it 
personally when I met with him, the importance of a zero 
tolerance policy on sexual assault. It has not happened. They 
have talked about it. They have talked about it. It still 
hasn't happened.
    Again, this famine resolution I think is extremely 
important.
    And finally on the issue of the escalating problem of anti-
Semitism, I support the Nita Lowey bill. Last week I had 
another hearing. It was about the 20th hearing on combating 
anti-Semitism and we heard from experts in the field just how 
bad it is in Europe. It is getting bad here as well but it has 
become so widespread that even in Sweden there are a number of 
cities where a man cannot even wear traditional garb, 
particularly the yarmulke and it is a very serious problem. We 
need to collaborate more closely with our European friends and 
really friends everywhere, including in Argentina, where that 
terrible devastation of 25 years ago remains unresolved. And 
there is great evidence to suggest that it was the Iranians who 
did it. And again, that has not been resolved.
    But I think it is important that we work much closer with 
our European friends to combat anti-Semitism. Last week at the 
hearing, people like Rabbi Andy Baker, who is the Personal 
Representative for the OSCE Chair-in-Office on Combating Anti-
Semitism, gave riveting testimony about how bad it is and 
getting worse. We need to do more. This resolution helps in 
that regard.
    Thank you.
    Chairman Royce. Thank you, Mr. Smith.
    Congresswoman Norma Torres from California.
    Mrs. Torres. Thank you, Chairman Royce, for putting this 
resolution forward. And thank you Ranking Member Engel, 
Chairman Duncan, and Ranking Member Sires for your support.
    I would also like to recognize the cosponsors of this 
resolution, in particular my friend from Michigan, Congressman 
Moolenaar, who does not sit on this committee but whose 
leadership on this resolution has been so important.
    Corruption is one of the most serious and difficult 
challenges facing Guatemala, Honduras, and El Salvador. In 
recent years, the Attorney Generals in these countries have 
made important progress in tackling corruption at the highest 
levels. They have benefited from strong support from the United 
States and from the International Commission against Impunity 
in Guatemala, led by Ivan Velasquez, and the mission to support 
the fight against corruption and impunity in Honduras, led by 
Juan Jimenez.
    As they have sought to pursue justice, the Attorney General 
and the leadership of MACCIH and CICIG have faced retaliation 
in the form of death threats, smear campaigns, and efforts to 
remove them from their posts. That is why this resolution is 
needed.
    House Resolution 145 reaffirms that combating corruption in 
the Northern Triangle is a policy priority for the United 
States in Central America. It acknowledges that CICIG and 
MACCIH are currently making important contributions to anti-
corruption efforts. It urges the Government of Guatemala to 
continue to cooperate with CICIG and the Government of Honduras 
to continue to cooperate with MACCIH. It encourages the 
Governments of Honduras, Guatemala, and El Salvador to publicly 
support efforts to fight corruption, to respect the 
independence of the Judicial Branch and the Office of the 
Attorney General, and to ensure that the Office of the Attorney 
General in each Northern Triangle country receives sufficient 
domestic budget allocations to carry out their core 
responsibilities and that budgeted funds are delivered in a 
timely manner.
    Mr. Chairman, the countries of the Northern Triangle find 
themselves at a crucial point. They have made significant 
progress and cannot afford to turn back the progress that has 
been made. This resolution will send a clear signal to the 
region that the United States continues to stand firmly on the 
side of the rule of law.
    Thank you and I would also like to thank all of the members 
that have put forward resolutions this morning. It is really 
great to sit here in a committee where we are working in a 
bipartisan way. Thank you all.
    And I yield back.
    Chairman Royce. Thank you, Congresswoman Torres.
    We go now to Congressman Joe Wilson of South Carolina.
    Mr. Wilson. Thank you Chairman Ed Royce for holding the 
markup to consider House Resolution 92. I appreciate your 
extraordinary leadership and also the extraordinary work of 
Ranking Member Eliot Engel. It is encouraging, as was cited by 
Congresswoman Torres, to see the bipartisan partnership that 
each of you have on behalf of our country.
    When I introduced this resolution in early February, it was 
in response to North Korea's threat that they planned to test 
an intercontinental ballistic missile. This was especially 
disturbing because an ICBM has the capability of reaching the 
West Coast of the United States.
    My concern over the threat of North Korea was underscored 
by a delegation visit with Ranking Member Eliot Engel to 
Pyongyang, a very rare visit to the DPRK. We actually witnessed 
a dictatorship obsessed with regime preservation as the 
citizens suffer starvation and this is in contrast to South 
Korea, which has become one of the world's wealthiest nations 
and most successful.
    Since I have introduced the resolution, North Korea has 
appeared to successfully test an ICBM, launched a satellite 
into orbit, four simultaneous ballistic missiles, three of 
which landed in Japanese territorial waters, a failed missile 
launch, and a test of a ballistic missile engine. The regime 
also claims it is planning another nuclear test early next 
month.
    Even more startling and incredible, last week the regime in 
North Korea released a propaganda video depicting a missile 
striking a U.S. aircraft carrier and calling for the 
destruction of the American people.
    This rapid pace of North Korea's almost weekly aggression 
is alarming and concerning to the United States and the 
citizens of South Korea.
    After 8 years of strategic patience, which only emboldened 
the totalitarian dictatorship even more, I am grateful that 
President Donald Trump is taking the regime and its threat 
seriously. Secretary of Defense Jim Mattis and Secretary of 
State Rex Tillerson recently visited our allies in Japan and 
South Korea and the United States Ambassador to the United 
Nations, Nikki Haley, has led the efforts to strengthening 
international sanctions against North Korea.
    The administration has also demonstrated peace through 
strength by backing up their commitments to our allies with 
action. We have begun deploying the THAAD missile defense 
system, recently resumed our annual military training exercises 
with South Korea, and deployed attack drones to protect our 
servicemembers stationed in the region, along with the people 
of South Korea.
    As we attempt to check the growing influence and missile 
capability of North Korea, Congress, too, has a vital role to 
play, continuing by passing House Resolution 92 forcefully 
condemning North Korea, put sanctions on the regime and the 
individuals or businesses that sustain it. That is why I 
appreciate that Chairman Ed Royce and Congressman Judge Ted Poe 
have introduced complementary legislation that makes it clear 
the United States must stand strong against North Korea and for 
the extraordinary people of South Korea.
    I am grateful that the committee is considering House 
Resolution 92 and urge the committee to successfully report out 
the resolution.
    Thank you very much, Mr. Chairman.
    Chairman Royce. Thank you.
    We now go to Mr. David Cicilline, Congressman from Rhode 
Island.
    Mr. Cicilline. Thank you, Mr. Chairman and Ranking Member 
Engel for holding this markup today. As always, I am pleased 
that this committee has come together in the in the spirit of 
bipartisanship to pass legislation that deals with a variety of 
important issues. All of the measures being considered today 
are worthy and help advance important causes of which this 
committee has jurisdiction.
    I am proud to be a cosponsor of many of these bills and the 
lead sponsor of House Resolution 137, which honors the life of 
Israeli leader, Shimon Peres. This resolution, which has the 
support of 48 bipartisan cosponsors, including many members of 
this committee, recognizes the important achievements of Shimon 
Peres in building the State of Israel, leading it as its Prime 
Minister and later President, and striving to achieve peace.
    Shimon Peres was devoted to the cause of the Jewish State 
and worked tirelessly to achieve a lasting peace in the Middle 
East. He was a founding father to the State of Israel and 
remained, throughout his life, one of its greatest champions. 
He was a central architect of the Oslo Accords and was 
respected around the world for his strong leadership as Prime 
Minister and President of Israel. His example should be an 
inspiration to us all.
    Shimon Peres was an immigrant, who left Poland in the early 
1920s to seek a better life of what was then the British-
controlled Palestinian Mandate.
    After the recognition of the State of Israel by the 
international community, Peres became one of its leading 
political figures and helped guide the country through the hope 
and turmoil of its early days.
    Along with David Ben-Gurion, Peres helped establish the 
Labor Party in 1968 and then went on to serve his country for 
nearly 50 years in various capacities, including as defense 
minister, a member of the Parliament, the Knesset Prime 
Minister, and ultimately President.
    Mr. Peres was instrumental in negotiating the Oslo Accords 
which set the framework negotiating settlement and close 
working relationships between Israel and the Palestinian 
people.
    Mr. Peres was a pillar of stability, as he led the Israeli 
people as Prime Minister during the frightening and turbulent 
period following the tragic murder of Yitzhak Rabin in 1995.
    And in 1996, still resolved to achieve a lasting peace, he 
founded the Peres Center for Peace dedicated to promoting 
peace-building and cooperation between Israelis and 
Palestinians.
    Mr. Peres once said that life's purpose was ``to find a 
cause that is larger than yourself and then to give your life 
to it.'' And he truly embodied that sentiment.
    I had the pleasure of meeting Shimon Peres numerous times 
over the years and the last time we spoke in March 2015, we 
discussed our mutual hopes for a peaceful future for Israel. 
With this resolution, we honor the outstanding work that Shimon 
Peres did over the course of his inspirational life and I urge 
us all to live by his example, dedicating our lives to a cause 
we believe in and hope that we may honor his memory by 
assisting the Israelis and Palestinians in achieving a lasting 
peace.
    I want to thank the chairman and ranking member for 
bringing this resolution before the committee today and thank 
my colleagues for their bipartisan support for this measure.
    And before I yield back, Mr. Chairman, I would ask 
unanimous consent for the statement of the author of H.R. 672, 
Nita M. Lowey, to be introduced in the record in support of her 
legislation.
    Chairman Royce. Without objection.
    Mr. Cicilline. And with that, I yield back.
    Chairman Royce. Thank you, Congressman Cicilline.
    We go now to Mr. Mike McCaul from Texas.
    Mr. McCaul. Thank you, Mr. Chairman. I want to thank you 
and the ranking member for holding this morning's markup on 
these legislative measures, in particular those pertaining to 
North Korea that I believe are critical to addressing the many 
foreign policy challenges currently facing the United States.
    I would like to express my support for the three bills that 
focus on the current threats emanating out of the north of the 
Korean Peninsula.
    Mr. Chairman, for years the international community has 
viewed North Korea's incessant temper tantrums and provocations 
as little more than belligerent bluster. However, Jong Un's 
continued ballistic missile tests, including another ballistic 
missile engine test on Monday, the third in recent weeks, is 
evidence of the regime's unrelenting quest to develop the 
ability to launch a nuclear attack far beyond its own backyard. 
Such a quest poses a real and direct threat to the national 
security of the United States and our allies in the region. I 
believe disregarding this threat as simply tough talk is 
extremely dangerous.
    Earlier this month, I authored an op-ed on the steps the 
United States can take to bolster the security of the homeland 
and our allies in the region to counter this growing threat. 
Such steps included partnering with our allies in the region to 
expand missile defense shields, building on the deployment of 
the Terminal High Altitude Area Defense, or THAAD systems, 
already deployed in South Korea, all the while enhancing our 
defenses here at home by increasing the number of ground-based 
interceptors on the West Coast, as well as improving 
intelligence-gathering measures to get a clear picture of North 
Korea's arsenal.
    I believe the United States should also pursue more 
aggressive sanctions on North Korea, such as secondary 
sanctions to crack down on North Korean front companies, black 
market exchanges, and coal experts, all of which allow the 
radical regime to stay afloat, despite legislation signed into 
law last year imposing stiff sanctions on North Korea's illicit 
activities, such as counterfeiting of U.S. currency and 
narcotics trafficking.
    The United States should also place North Korea back on the 
State Sponsor of Terrorism list, which it should never have 
left in the first place. And lastly, we must work to counter 
message the regime's propaganda and redouble U.S. efforts to 
ensure the people of North Korea have access to information 
from the outside world.
    Grouped together, these pieces of legislation, I believe, 
send a strong signal to the international community and North 
Korean Dictator Kim Jong Un that the United States will not sit 
idly by while its adversaries threaten the peace and security 
of the region and the U.S. homeland.
    Mr. Chairman, I look forward to supporting the passage of 
these bills and encourage my colleagues in the House. I commend 
you for bringing this forward to send a message that North 
Korea is a menace that cannot be ignored and must be tempered.
    Thank you and I yield back.
    Chairman Royce. Thank you.
    Congresswoman Karen Bass from California.
    Ms. Bass. Thank you, Mr. Chair. I especially want to thank 
you and your staff for your assistance in H. Res. 187 and I 
also want to thank the ranking member and the chair of the 
subcommittee, who I believe is not here. We had a very good 
hearing yesterday and although this resolution is about South 
Sudan, I am sorry to say that we will probably be coming back 
again with additional resolutions because we know that the 
famine is beyond South Sudan.
    On February 20th, 2017, famine was declared formally in two 
counties of Unity State, which is in the northern portion of 
South Sudan. An estimated 100,000 plus people are currently 
experiencing famine. International humanitarian agencies in 
South Sudan express growing concern that the famine will 
spread, affecting some 4.9 million men, women, and children, 
effectively 40 percent of the embattled country's population. 
These people are currently considered to be on the brink of 
starvation.
    The resolution calls on USAID to continue its leadership 
role in providing robust assistance in response to the famine 
in South Sudan. Also, the resolution calls on the Government of 
South Sudan to stop ongoing hostilities and enable humanitarian 
supplies and foods supplies to reach civilians. The resolution 
specifically calls on the Government of South Sudan to allow 
immediate and unrestricted humanitarian access to those areas 
suffering from famine.
    Equally important, it condemns threats against not only the 
civilian population but humanitarian assistance workers. Today, 
over 70 humanitarian workers, mostly of South Sudanese origin, 
have been killed since the beginning of the internal conflict. 
The resolution cites the attack on Americans at the Terrain 
camp in July 2016.
    This resolution is timely and necessary to stem the tide of 
too many lost lives amongst the population of the world's 
youngest state, South Sudan, calls for the U.S. Government to 
work with partners in the international community, including 
the African Union and European Union, and encourages greater 
diplomatic pressure to get the parties to return to 
negotiations.
    I ask that my colleagues support this amendment in the 
nature of a substitute to House Res. 187. Thank you.
    Chairman Royce. Thank you, Congresswoman Bass.
    Chairman Jeff Duncan from South Carolina.
    Mr. Duncan. Thank you, Mr. Chairman. I rise to support all 
the measures before the Foreign Affairs Committee this morning 
but, most importantly, I want to talk about my support for H. 
Res. 54 put forth by the ranking member of the Western 
Hemisphere Subcommittee, my good friend, Albio Sires. I am a 
proud cosponsor of that legislation.
    This bill sends a strong message that the United States 
values the relationship with Argentina. It urges the Department 
of State to increase cooperation and commends President Macri 
for his economic reforms and for resolving most of Argentina's 
business disputes, the bondholder issues that many of us have 
worked on for years, and encourages Argentina to continue to 
investigate and prosecute those responsible for the 1994 AMIA 
bombing.
    Last year, as Ranking Member Sires said, I led a 
congressional delegation to Argentina to see the differences in 
this country under new leadership of President Macri and to re-
extend the hand of friendship from the United States. At that 
time, it was clear to me that the new Macri administration was 
intent on fixing the ruinous economic policies of the previous 
government, reestablishing ties with friendly governments in 
the region, including the United States, and reasserting 
Argentina's role in the region as an important strategic 
leader.
    Many of you have traveled to Argentina in the past and I 
can tell you that you could almost taste the optimism within 
the Argentine people and in the air about the future of that 
country.
    Furthermore, at the OAS, the Organization of American 
States, Argentina has been supportive of the actions of OAS 
Secretary General Almagro, urging the Venezuelan Government to 
respect democracy, human rights, and the rule of law. And I 
applaud Argentina's role in that.
    This was my second trip to the AMIA facility, the site of 
the '94 AMIA bombing terrorist attack, the largest loss of life 
from a terrorist attack in the Western Hemisphere prior to our 
own attacks here in the United States on 9/11. So President 
Macri is working to find justice for the 1994 AMIA bombing 
terrorist attack and I want to commend him for continuing the 
efforts of special prosecutor Alberto Nisman, who passed away 2 
years ago this January--murdered right before he was scheduled 
to testify and present before the Argentine Congress.
    So it is my sincerest hope that President Macri and his 
Government will find the perpetrators and hold them accountable 
for these heinous crimes.
    Our delegation laid flowers at the site of the AMIA 
bombing. That was the second time I did that. The first time 
was with Chairman McCaul several years ago. I urge my 
colleagues, if you do travel the region, to visit AMIA and 
remember what happened there, and remember the perpetrators are 
still at large.
    Mr. Chairman, thanks for your leadership on these issues. I 
want to thank the ranking member for his leadership on these 
issues as well.
    And with that, I yield back.
    Chairman Royce. Thank you, Mr. Duncan.
    We go now to Mr. Gregory Meeks from New York.
    Mr. Meeks. Thank you, Mr. Chairman, for calling up, and Mr. 
Ranking Member, H.R. 672 to markup today, bringing an important 
House Foreign Affairs Committee position on anti-Semitism in 
Europe.
    As ranking member on the Subcommittee on Europe and a proud 
New Yorker, the ties between my district and the Old Continent 
sometimes reveal ugly parallels of contemporary life. Anti-
Semitism in Europe is, sadly, not a part of the past. It is not 
merely words. And it is not becoming of any healthy society. 
Unfortunately, as the resolution acknowledges, anti-Semitism is 
very much alive and well not only in Europe but, unfortunately, 
in the United States also and can be seen even in a great city 
like my city, New York.
    This, indeed, is a transatlantic problem and I applaud this 
resolution's acknowledgment that this should be dealt with in 
multilateral organizations such as the EU and OSCE, where we 
are members. This work at the international level is for a 
common human cause. Therefore, it is with a solemn pledge to do 
more to fight this scourge and I will vote in support, of 
course, of H.R. 672.
    I also want to thank you, Mr. Chairman and Mr. Ranking 
Member, for calling up H. Res. 54. As Chairman Duncan has 
indicated, I have had the opportunity, and I was very 
impressed, to meet with the President, to meet and discuss our 
shared priorities with President Macri of Argentina. I was very 
impressed when I had lunch with him not too long ago.
    He has been credited with reversing Argentina's course and 
making engagement with the United States one of his priorities. 
Last March, following an historic visit to Cuba, President 
Obama made an additional historic visit to Argentina. His visit 
was the first bilateral visit by a U.S. President in almost two 
decades. While there, he announced that both our countries 
would launch a high-level dialogue to strengthen our bilateral 
relationship. These actions demonstrate our commitment to and 
our prioritization for our relationship with Argentina.
    As a senior member of the Western Hemisphere Subcommittee, 
I am pleased to support a resolution that highlights the 
importance of our relationship with Argentina, as well as the 
steps taken by President Macri and his administration to reform 
Argentina's economy.
    And I yield back the balance of my time.
    Chairman Royce. Thank you. Thank you, Mr. Meeks.
    Chairman Ted Yoho of Florida.
    Mr. Yoho. Thank you, Mr. Chairman. Thank you Mr. Chairman 
and Ranking Member Engel for bringing before this committee 
such important legislation and for working with me on my 
amendment to H.R. 1644, the KIMS Act.
    Last week, the Asia Subcommittee held a hearing evaluating 
what options the United States has at its disposal to deal with 
the growing North Korean threat. As I noted, Jong Un has 
dramatically accelerated his belligerent behavior, conducting 
two nuclear tests and two missile launches last year. Since 
2015, Kim Jong Un has tested more missiles than Kim Jong Il and 
Kim Il Sung combined, while making continued progress toward an 
ICBM capable of targeting nearly the entire continental U.S. 
Speculation is widespread that another nuclear test is 
imminent.
    But while we have seen over two decades of failed 
approaches of North Korea, this committee has continued to 
lead. We have before us a measure that further increased 
pressure on the brutal and belligerent Kim regime by targeting 
North Korea, North Korean slave labor, and expanding sanctions 
to deter Kim's nuclear weapons program.
    Again, I want to thank the chairman and ranking members for 
working with me on my amendment to this important legislation, 
which would help enforce a U.N. embargo on foreign countries 
from buying weapons from North Korea.
    We are also considering important legislation authored by 
Judge Poe that rightly pressures the State Department to put 
North Korea back on the State Sponsors of Terrorism List. 
During last week's Asia Subcommittee hearing on North Korea, I 
asked our panel directly whether the Kim regime should be 
relisted. Every witness on that panel replied that North Korea 
was a state sponsor of terror and North Korea belonged on that 
list last Congress when this committee passed Judge Poe's 
legislation. And it deserves to be relisted particularly in 
light of the brazen murder of Kim Jong Nam in Malaysia in the 
Malaysian airport, using VX nerve gas, a weapon of mass 
destruction.
    Finally, I want to offer my strong support for H. Res. 92, 
which condemns North Korea's development of intercontinental 
ballistic missiles and importantly welcomes the deployment of 
the THAAD in South Korea.
    I also would like to thank the chairman and Mr. Wilson for 
accepting language I authored that urges the Chinese Government 
to immediately cease its intimidation and retaliation against 
South Korea in an attempt to block the THAAD system.
    We need to be clear. The U.S.-South Korean alliance 
decision to deploy the defense of THAAD system is to counter 
the threat from the Kim regime and no one else, a threat that 
China is not adequately helping the world community in 
addressing. China's decision to punish South Korea is not only 
regrettable, it is inappropriate. Frankly, China is sanctioning 
the wrong Korea and Beijing needs to do more to crack down on 
North Korea's ballistic weapon program to stabilize not just 
the Korean Peninsula or the Asia-Pacific Region but the world.
    Thank you, Mr. Chairman, and I yield back the balance of my 
time.
    Chairman Royce. Thank you.
    Congressman Tom Suozzi of New York.
    Mr. Suozzi. Thank you, Mr. Chairman. I want to thank you, 
Mr. Chairman, and Ranking Member Engel for your leadership of 
this committee and bringing us together in a bipartisan 
fashion. It is such a great honor for me to serve on this 
committee and to be involved in these different issues and I am 
happy to support each of these nine resolutions today.
    When looking at each of these resolutions, it emphasizes 
the idea that in the world today, we are facing this great 
battle between stability and instability, places that have 
control and places that are in chaos. And the old battles, when 
the Soviets and the Americans were propping up countries that 
were either incompetent, or corrupt, or lacked resources but 
were able to keep them stable is a very different world today. 
So many places in this world today are unstable. That is why we 
have gone from 33 million refugees in the world 10 years ago to 
65 million refugees today. And this committee has such an 
important role to play in trying to encourage stability and 
discourage instability.
    These three bills today about North Korea are great 
examples of trying to stop a nation that is trying to promote 
instability in the world. The bill today about Iraq and the 
Syrian genocide is the same concept of people that are trying 
to create instability in the world.
    This anti-Semitism that we see happening throughout Europe 
and much of the world is the same concept. And the corruption 
that we see in Central America is another example of the 
instability.
    And we are trying to promote stability by trying to address 
the issues of famine in the South Sudan and trying to promote 
stability in Argentina with a good partner there.
    I just want to close up by talking about Shimon Peres. I 
was fortunate, along with Adriano Espaillat, to meet Shimon 
Peres back in 2002 when he explained the two-state solution 
concept to us. And that idea is really in keeping with this 
concept of stability versus instability. The idea of the two-
state solution is that we need to have another governed nation 
that can hold its people accountable so that when there is an 
effort to try and have peace, that people who try and violate 
that peace can be held accountable by a police force or by an 
army or by a national government that will hold those people 
that want to purvey instability, hold them accountable and stop 
them from that behavior.
    So again, I want to just say thank you so much for the 
opportunity to serve on this committee. It is a great honor. 
And thank you for the good work that our leaders are doing. I 
want to congratulate all of my colleagues for the good work 
that they have done here today. Thank you.
    Chairman Royce. Thank you.
    We go now to Mr. Espaillat from New York. I believe he is 
the last person requesting time.
    Mr. Espaillat. Thank you, Mr. Chairman, for this 
opportunity to speak on this markup. Certainly, there are many 
worthy resolutions in this effort.
    The Resolution 54, reaffirming the United States and 
Argentina's partnership is a worthy one and particularly 
because it also commits to investigating anti-Semitism and the 
bombing of a synagogue there in Argentina.
    In addition, there are three resolutions, including 
Resolution 92, condemning North Korea. We must continue to keep 
sanctions on that country and the threat that they pose to our 
nation and the world.
    Resolution 137, honoring the life of Shimon Peres, as 
Congressman Suozzi stated, in 2002 we had the opportunity to 
meet Shimon Peres, a great statesman who advocated for the two-
state solution and someone that we all look to for guidance, as 
he left a tremendous legacy for peace in the region.
    In addition, I commend Congresswoman Torres for her 
Resolution 145, expressing a sense of the House of 
Representatives regarding the fight against corruption in 
Central America. We will be supportive of that resolution and I 
hope that in the future, we will also be able to take up 
similar resolutions for other Latin American and Caribbean 
countries that are fighting corruption, one of the greatest 
ills affecting governments in the region.
    The resolutions for famine in Sudan, Iraq and Syria 
genocide emergency relief, and combating European anti-Semitism 
are all very good solutions that I will support.
    I look forward to working in the upcoming markups and I 
thank you, Mr. Chairman, for your good work and your bipartisan 
efforts to include members from both sides of the aisle.
    Chairman Royce. Thank you, Mr. Espaillat.
    Hearing no further requests for recognition, the question 
occurs on the items considered en bloc.
    All those in favor say aye.
    All those opposed, no.
    In the opinion of the chair, the ayes have it. The measures 
considered en bloc are agreed to. Without objection, the 
measures considered en bloc are ordered favorably reported, as 
amended.
    Staff is directed to make any technical and conforming 
changes. And the chair is authorized to seek House 
consideration under suspension of the rules.
    So, that concludes our business for today and I want to 
thank Ranking Member Engel and all of our committee members for 
their contributions, for your assistance with today's markup.
    The committee is adjourned.
    [Whereupon, at 11:51 a.m., the committee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


 Material submitted for the record by the Honorable David Cicilline, a 
       Representative in Congress from the State of Rhode Island
       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 <all>
</pre></body></html>
